Case: 19-10233

Document: 00515391498

Page: 1

Date Filed: 04/22/2020

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 19-10233
JULIO TORRES PALOMO,
Petitioner-Appellant
v.

LORIE DAVIS, DIRECTOR, TEXAS DEPARTMENT OF CRIMINAL
JUSTICE, CORRECTIONAL INSTITUTIONS DIVISION,
Respondent-Appellee
Appeal from the United States District Court
for the Northern District of Texas
ORDER:
Julio Torres Palomo, Texas state prisoner # 1923341, moves for a
certificate of appealability (COA) to appeal the district court’s denial of his 28
U.S.C. § 2254 petition, wherein he challenged his conviction for continuous
sexual assault. In his COA application, Palomo argues that his indictment was
defective, the evidence was insufficient to support his conviction, the jury
charge did not track his indictment, the interpreter who translated during a
forensic interview was unqualified, the trial court erred in permitting a nurse
to testify regarding a sexual assault examination, testimony regarding the
forensic interview constituted inadmissible hearsay, and the State withheld
exculpatory evidence.

Although Palomo also raised claims of ineffective

assistance of counsel in his § 2254 petition, he has abandoned them in this

Case: 19-10233

Document: 00515391498

Page: 2

Date Filed: 04/22/2020

No. 19-10233
court by his failure to brief any challenge to the district court’s rejection of
them. See Hughes v. Johnson, 191 F.3d 607, 613 (5th Cir. 1999)
As to the claims raised in Palomo’s COA application, this court will grant
a COA only if he makes “a substantial showing of the denial of a constitutional
right.” 28 U.S.C. § 2253(c)(2). That is, Palomo must establish that reasonable
jurists would find the decision to deny relief debatable or wrong, see Slack v.
McDaniel, 529 U.S. 473, 483-84 (2000), or that the issues he presents deserve
encouragement to proceed further, see Miller-El v. Cockrell, 537 U.S. 322, 327
(2003). Palomo has not made the required showing.
Accordingly, the motion for a COA is DENIED.

£
sf §yiijs'§2;

z
&

/
KURT D. ENjGELHARDT
UNITED STATESCIRCUIT JUDGE

A True Copy
Certified order issued Apr 22, 2020

dw(< W. DomCa
Clerk, U.S. Court of Appeals, Fifth Circuit

2

Case: 19-10233

Document: 00515500152

Page: 1

Date Filed: 07/23/2020

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

No. 19-10233
JULIO TORRES PALOMO,
Petitioner - Appellant
v.

LORIE DAVIS, DIRECTOR, TEXAS DEPARTMENT OF CRIMINAL
JUSTICE, CORRECTIONAL INSTITUTIONS DIVISION,
Respondent - Appellee
Appeal from the United States District Court for the
Northern District of Texas
Before DENNIS, SOUTHWICK, and ENGELHARDT, Circuit Judges.
PER CURIAM:
IT IS ORDERED that appellant’s motion for leave to file out of time the
motion for reconsideration is GRANTED.
A member of this panel previously denied appellant’s motion for a
certificate of appealability. The panel has considered appellant’s motion for
reconsideration.
IT IS FURTHER ORDERED that the motion for reconsideration is
DENIED.

